                          NATIONAL SCIENCE FOUNDATION
                            WASHINGTON, D.C. 2 0 5 5 0




    O f f i c e of
Inspector G e n e r a l



MEMORANDUM
      DATE :
      FROM :
                                                         .   ..-   -   -.-   -   .


        VIA:

 SUBJECT: Allegation of Misuse of Funds at


         TO:' Case No. I93080036

On August 31, 1993,
of funds at the                                                                      il       il
According to the c
                                                                                               /I
         5
            for su
at the
of NSF
              were misused. A1                          ed dollarsu
              ere used to pay the salary of an employee who did not
work on the NSF project. The complainant did not recall precisely
when the misuse occurred, and was unable to identify the employee
involved or any persons who might have knowledge of the misuse of
                                                                                     I!       ill   1
                                                                                                    I



funds .                                                                                        1    i
            NSF1s proposal and award documentation for grant no.                     1'       'I    ,
                                                                                                    I

           , and found no evidence to substantiate the allegation                                   i
             funds. We also found no documented irresularities;                                I/   I
the cognizant NSF division was satisfied with the progEess on the                              I,
award.
                                                                                     8,

                                                                                          ,   II

Due to limited investigative resources and the lack of other,                                  II
specific leads to pursue, further investigation of the allegations                             I

is not warranted at this time.
This case is closed.
